DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy

memorandum
     DATE:         August 7,2008                                        Audit Report No. OAS-L-08-15
     REPLY TO
    ATTN OF-       IG-34 (A08ID013)

     SUBJECT       Report on "Resolution of Personal Safety Issues at the Department of Energy"

     TO:       .   Chief Health, Safety and Security Officer

                   INTRODUCTION AND 0B.TECTIVE

                   The Department of Energy's (Department) Corrective Action Management Program
                   (CAMP) is a systematic process for developing, tracking, reporting, and implementing
                   corrective actions to resolve safety findings. It is also used to determine the effectiveness
                   of completed corrective actions in preventing the recurrence of safety issues. The
                   Department's Office of Health, Safety and Security (HSS) oversees CAMP and performs
                   safety program assessments at each major Department site every one to three years to
                   identify safety findings that require corrective action. That office also identifies, on an
                   organizational level, significant programmatic weaknesses, areas needing improvement,
                   and areas with effective performance.

                   Aficr the site assessment is completed by HSS, the site must develop a corrective action
                   plan to address identified safety findings. Department Order 314.1C, Quality Assurance,
                   prescribes requirements for corrective action management and identifies the required
                   elements of site corrective action plans. Department line managers are responsible for
                   addressing, tracking, reporting, completing and verifying closure of corrective actions to
                   effectively resolve all findings. The creation and modification of corrective actions must
                   be approved by       site's designated Programmatic Secretarial Office or designee and are
                   tracked to resolution in the Department's Corrective .4ction Tracking System (CATS).
                   Also tracked in CATS are corrective actions resulting from Type A accident
                   investigations, findings identified by the Office of Aviation Management, and other
                   sources directed by the Secretary or Deputy Secretary.

                   We conducted this audit to determine whether Department field sites are taking corrective
                   actions to resolve safety issues arising under the CAMP.


                   CONCLUSIONS AND OBSERVATIONS

                   Based on testing at four of the DepartnentYs f el6 sites, nothing came to our attention to
                   indicate that safety issues identified by HSS were not being resolved. Through CAMP,
                   each of the sites we visited was working to correct and close out identified findings and
                   to address areas needing improvement. However, we noted several minor issues related
to the completeness of corrective action plans, timeliness and accuracy of CATS data,
and the ability to perform trending analysis on a complex-wide basis.

                         Completeness of Corrective Action Plans

Two of the field sites reviewed were not including all required elements in their
corrective action plans. Department Order 414.1 C requires that each corrective action
have a deliverable, as well as planned initiation and completion dates. However,
Argonne National Laboratory (Argonne) did not identify the deliverable for many of the
corrective actions and Sandia National Laboratories (Sandia) did not establish the
required initiation dates necessary to permit management to evaluate progress in
implementing corrective actions. Even though HSS and cognizant programs reviewed
each corrective action plan, neither identified the omissions nor did they provide the sites
with recommendations to identify all required elements.

                        Timeliness and Accuracv of Data in CATS

Data related to corrective actions maintained in CATS was also not always entered within
established timefrarnes. Once a corrective action plan is approved by the program office,
sites are required to input the corrective actions into CATS within 10 business days.
Additionally, as the corrective action plans are implemented, sites are required to enter
the completion and verification status of the actions. Overall, in 78 of the 143 actions
sampled, or 54 percent, the corrective actions were not input into CATS when due.
Specifically,

          All 36 of the actions sampled at Argonne were input approximately 2 months
          after the approval of the corrective action plan.
          Twenty-three of the 26 actions sampled at the Savannah River Site were entered
          approximately 5 months after the approval of the corrective action plan.
          The 13 actions sampled from a 2005 corrective action plan at the Idaho National
          Laboratory (Idaho) were input into CATS approximately 2 months after the due
          dare; however, all of the actions from thc most recent 3007 corrective action
          plan were entered on time.
          Six of the 32 actions sampled at Sandia were entered approximately 2 months
          after the specified date.

In addition to delays in recording corrective actions, we noted that many of the
completion dates entered into CATS were inaccurate. In addition to a planned
completion date, sites are required to enter an actual completion date into CATS. In 74
of the 143 actions sampled, or 52 percent, the actual completion date entered into CATS
did not match the documented completion date in the site's files. For example, 41 of the
143 actions differed by more than 10 days from the date recorded in CATS. In ZG of the
143 actions sampled, the evidence in the file indicated that the actions were actually
completed after the due dato, aithough they were entered into CATS as being completed
on time. The CATS database is maintained by the Office of Corporate Safety Programs,
within HSS. However, this office does not monitor the field sites' data entry to ensue it
is timely and accurate. Because senior Department officials use this database to track the
progress of corrective actions regarding safety program-related findings, it is important
that the information be complete and accurate.

                             Complex-wide Trending Analysis

Finally, the CATS database was not uscful for identifying trends in recurring safety
concerns on a complex-wide basis. In fact, it was only used to track the timeliness of
corrective actions. Thc Department's Guide 414.1-5, Corrective Action Program Guide,
states that a successful corrective action management program should perform a reliable
trending analysis of findings and related causes to identify trends in occurrences, generic
problems, and cross-functional weaknesses. While field level tracking systems permit
sire-by-site anaiyses, the CATS database does not have the capability to perform a
complex-wide trend analysis. The CATS database allows users to group findings into
specific categories to determine the number of findings in each functional area: however,
it does not provide the capability to sort by cross-functional areas or causes to determine
whether systemic problems exist throughout the Department. The lack of trending
prevents sites from taking advantage of causal analyses or corrective action development
lessons learned at other sites.

Management pointed out that it does have trending capabilities outside the confii~esof the
CATS database. For example, the Office of Analysis Operating Experience (OPEX)
program draws from many sources including CATS and is used to create safety and
health lessons learned notices which are then disseminated throughout the Department
complex. However, in further discussions with HSS officials, we lcarned that the OPEX
Program primarily relies on the field sites to submit !esscr,s !ea=cd reports a i d ihe fieici
sites generally do not submit lessons learned reports for corrective actions resulting from
I-LSS assessments. Therefore, we believe that improvements to the system are needed in
order to perform useful trending analysis.


SUGGESTED ACTIONS

To address the issues described in this report, we suggest that the Chief Health, Safety
and Security Officer, in coordination with applicable field site managers, as appropriate:

    1. Provide oversight to ensure corrective action plans are completed as required and
       that field sites increase their efforts to comply with Department Order 4 14.1C;

    2. Ensure that time limit requirements for data entry are met and completion dates
       are accurately reflected in CATS; and,

    3. Review the CATS specifications to determine whether the system is capable of
       providing more value to management by trending or risk-ranking corrective
       acticns.
Because no forma1 recommendations are being made in this report, a response is not
required. We appreciate the cooperation of your st& and the various Departmental
elements that p r ~ v i d e dinf~rmationand assistance.




                                    u r e d r i c k G. Pieper, Director
                                           Science and Enviro~unental
                                             Audits Division
                                           Office of Inspector General

Attachment

cc:   Deputy Secretary
      Chief of Staff
      'Tern1 Leader, Audit Liaison Team, CF- 1.2
      Audit Liaison, HSS
      Audit Liaison, Chicago Office, SC-CH
      Audit Liaison, Idaho Operations Office
      Audit Liaison, Savannah River Operations Office
      Audit Liaison, Savannah River Site Office
      Audit Liaison, Sandia Site Office
                                                                          Attachment


SCOPE AND .METHC?I?OLSS'I'

The audit was performed from January 2008 to July 2008 and included sampling at the
following field sites: Argonne National Laboratory, Idaho National Laboratory, Sandia
National Laboratories, and the Savannah River Sitc. Tile audit covered the most recent
Office of Health, Safety and Security assessments and related corrective action plans at
these sites.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence ro provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.
Specifically, we assessed internal controls over the Department's Corrective Action
Management Program as it relates to the completeness o f corrective action plans;
consistency between sites; accuracy of the data in CATS; and the ability to perform
trending analysis complex-wide. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. Also, we examined the establishment of performance measurcs in
accordance with the Government Pe~fbrmanceand Results .4ct of 1993 as it relates to the
audit objective. Finally we relied upon automated data processing information to
accomplish our audit objective, and conducted an assessment of the reliability of
computer processed data.

An exit conference was held with officials from the Office of Health Safety and Security,
Argonne National Laboratory, Idaho National I,aboratory, Sandia National Laboratory
and Savannah River Site on August 5, 2008.
